<html>
<title> - NATO: FROM COMMON DEFENSE TO COMMON SECURITY</title>
<body><pre>[Senate Hearing 109-485]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-485
 
              NATO: FROM COMMON DEFENSE TO COMMON SECURITY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                            FEBRUARY 7, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
28-810                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hagel, Hon. Chuck, U.S. Senator from Nebraska....................     3
Jones, GEN James L., Jr., USMC, Supreme Allied Commander Europe 
  (SACEUR), Supreme Headquarters, Allied Powers Europe, Mons, 
  Belgium........................................................     3
    Prepared statement...........................................     8
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1


Additional Statement and Questions and Answers Submitted for the Record

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    24
Jones, GEN James, Jr., responses to questions submitted by 
  Senator Lugar..................................................    26

                                 (iii)

  


              NATO: FROM COMMON DEFENSE TO COMMON SECURITY

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                     Washington DC.
    The committee met, pursuant to notice, at 9 a.m., in room 
SD-419 Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee) presiding.
    Present: Senators Lugar and Hagel.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Foreign Relations 
Committee is called to order. Today the Foreign Relations 
Committee meets to discuss the evolution of the NATO Alliance 
and its operations in Afghanistan. We are especially honored to 
welcome our good friend GEN James Jones, Supreme Allied 
Commander, Europe, to share with us his insights on NATO's 
transformation and its role in Afghanistan and other regions 
outside the Alliance's borders.
    General Jones has brought energy and imagination to 
nontraditional operations outside of Europe. In August, I had 
the pleasure of joining General Jones in North Africa on a 
humanitarian mission to facilitate the release of the last of 
404 Moroccan prisoners of war held by the Polisario. The 
release of these prisoners involved United States mediation 
between Morocco and Algeria, two Muslim nations with whom we 
are seeking closer ties. General Jones' military-to-military 
contacts with these nations and the logistic support he was 
able to deliver through the European Command were essential to 
the success of this humanitarian mission. The ease with which 
he and his personnel worked the Moroccans and Algerians 
demonstrated how successful they have been in building ties to 
militaries outside of Europe.
    The time when NATO could limit its missions to the defense 
of continental Europe is far in the past. With the end of the 
cold war, the gravest threats to Europe and North America 
originate from other regions of the world. This requires 
Europeans and Americans to be bolder in remaking our alliances, 
forging new structures, and changing our thinking. We must 
reorient many of our national security institutions, of which 
NATO is one of the most important. To be fully relevant to the 
security and well-being of the people of its member nations, 
NATO must think and act globally.
    In particular, NATO must engage with nations on its 
perimeter to promote security and stability. Many nations in 
North Africa, the Middle East, Central Asia, and South Asia 
have suffered from instability and conflict generated by 
demographics, religious extremism, autocratic governments, and 
stagnant economic systems. I applaud NATO's Partnership for 
Peace, Mediterranean Dialog, and Istanbul Cooperation 
Initiative, which seek to create partnerships with selected 
countries across Eurasia, the Middle East, and Africa. These 
initiatives enhance our security and stability through new 
regional engagement on common security issues, including 
military-to-military cooperation. NATO has been a valuable 
instrument for helping nations reform and professionalize their 
militaries. It also has participated in many humanitarian 
missions, including its recent 3-month effort in Pakistan 
following the devastating October earthquake.
    Geographic distance should not dissuade NATO leaders from 
developing stronger links with nations willing to cooperate 
with NATO missions and activities. Australia and New Zealand 
already support the NATO operation in Afghanistan, and Japan 
and South Korea have expressed their interest in closer links 
to NATO.
    In coming months, special attention must be paid to NATO's 
support for the African Union and its peacekeeping mission in 
Darfur. The African Union's efforts to respond to the genocidal 
violence in Sudan have been augmented by NATO's assistance with 
transportation, communication, and other logistical 
requirements. Because of continuing violence in Sudan, last 
week the U.N. Security Council asked the Secretary General to 
begin planning for a U.N. peacekeeping force in Darfur. Such a 
mission would reinforce and eventually absorb the African Union 
contingent. The proposed U.N. force is likely to require 
expanded NATO logistics support.
    In 2002, the Bush aministration proposed the Prague 
Capabilities Commitment and the NATO Response Force, the NRF. 
These initiatives were designed to facilitate the creation of 
an agile, flexible, and expeditionary military capability that 
can respond to security challenges beyond the borders of 
Europe. While progress has been made, some members have fallen 
behind in meeting these commitments. This must change if NATO 
is to be fully effective.
    NATO's effort to stabilize Afghanistan exemplifies the 
challenges facing the Alliance in its transition to a global 
mission responsive to its common security. We have witnessed a 
steady political transition in Afghanistan since the fall of 
the Taliban in 2001. The Afghans held successful Parliamentary 
and Provincial elections last fall. The international community 
displayed strong support for Afghanistan at the London Donor's 
Conference just last week and the newly concluded Afghanistan 
Compact is a credible plan for strengthening the security, 
economy, and governance of the nation.
    Despite the progress and renewed commitments, severe 
threats to Afghanistan's future remain, especially from 
terrorism, religious extremism, and the narcotics trade. 
Overcoming these challenges will require a sustained 
international commitment, of which NATO is the most important 
component.
    While Operation Enduring Freedom continues to prosecute the 
war on terror in Afghanistan, NATO is poised to take on a more 
robust security and reconstruction role. The decision by the 
Netherlands last week to commit up to 1,700 troops to the NATO-
led reconstruction mission in southern Iraq was an important 
affirmation of the importance of this mission. These expanded 
NATO operations, first in southern Afghanistan and then in 
eastern Afghanistan, will be a test of NATO's capacity to 
defend its security ``in depth,'' far from Europe's borders.
    Afghanistan presents a difficult environment, but NATO must 
be resourceful, resilient, and ultimately successful. Failure 
would be a disaster for global security. As NATO's Secretary 
General commented last week, ``If we fail, the consequences of 
terrorism will land on our doorstep, be it in Belgium, 
Amsterdam, the United States, or whatever.''
    We look forward very much to our discussion with General 
Jones today and we thank him for his willingness to join us. 
I'd like to recognize Senator Hagel's presence. Senator Hagel, 
do you have a comment or a statement?

   STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you. I would echo what 
you have just said and add my welcome to our distinguished 
guest today, General Jones. Look forward to his testimony. 
Thank you.
    The Chairman. Thank you very much, Senator Hagel. General 
Jones, will you please proceed. Please give a full report. As 
I've mentioned to you privately, this is a day in which we want 
to hear from you extensively about your experiences and your 
mission.

  STATEMENT OF GEN JAMES L. JONES, JR., USMC, SUPREME ALLIED 
COMMANDER EUROPE (SACEUR), SUPREME HEADQUARTERS, ALLIED POWERS 
                     EUROPE, MONS, BELGIUM

    General Jones. Thank you, Mr. Chairman and Senator Hagel, 
it's--thank you both for allowing me the opportunity to make a 
presentation before this distinguished committee. I'm most 
grateful for the invitation to come here this afternoon.
    Today I'm appearing before you in my capacity as the 
Supreme Allied Commander in Europe and also the commander of 
United States European Command. In so doing, I will provide you 
with a brief overview of current NATO activities and in my 
remarks I will focus on NATO's greatest challenges this year in 
2006 which is the expansion of the International Security 
Assistance Force or ISAF mission across the southern and 
eastern regions of Afghanistan, as well as NATO's efforts to 
bring its premier transformational vehicle, the NATO Response 
Force, to full operational capability by October of this year.
    Before you, you have a brief summary of NATO's ongoing 
missions and operations and this will provide you a reference 
as we discuss these topics. Before I begin, I would like to 
introduce one member of my party in particular, SGM Alfred 
McMichael. Sergeant Major McMichael is completing his 36th year 
on active duty as a U.S. Marine. He has served a long, and has 
a long and distinguished, career. He was the sergeant major of 
the Marine Corps when I was the commandant of the Marine Corps 
in my tours from 1999 to 2003 and then agreed to come over and 
become the first sergeant major of Allied Command Operations in 
NATO.
    And I entrusted him with a very simple mission statement 
and that is to go forth and expose the value of noncommissioned 
officers and staff noncommissioned officers to countries of the 
Alliance who had no such experience. As you know, the eastern 
block countries of the former Soviet Union do not have the NCO 
structure in their armed forces. And in the 3 years that the 
sergeant major has been here with his colleagues, nine 
countries now have NCO and staff NCO programs that did not have 
them before. He has accomplished this job with his usual 
passion and enthusiasm and also a great deal of leadership and 
personal style. He's a consummate diplomat and he has had a 
vision and a purpose and he has achieved his mission 
spectacularly and I would like to introduce a truly great 
American and a great marine to you and certainly someone 
without whom I could not have done my job at all. And he will 
be leaving active duty this summer after 36 years of duty. I 
know of no marine who's made a greater contribution, not only 
to the Marine Corps, but also to the international community 
that we're developing as we speak.
    The Chairman. Would you ask him to stand, please, so we can 
recognize him. Thank you so much for being a part of our 
hearing. We're honored.
    General Jones. Mr. Chairman, Senator Hagel, as you both 
know, NATO is rapidly transforming. At the Prague Summit in 
November of 2002, NATO members signaled their recognition of 
the changing security environment and the need to make major 
shifts in both organization and military capabilities of the 
Alliance. NATO is making progress and is perhaps in the midst, 
in my view, of the most fundamental physical and philosophical 
transformation in its history.
    While NATO has achieved some notable successes since 2002 
in transforming its military structure, the Alliance finds 
itself at the strategic crossroads between the 20th and the 
21st centuries. Nations of the Alliance now totaling 26 
increasingly display greater political will to undertake 
missions of great strategic distances in Afghanistan and Iraq 
and even in Africa, and I've put a chart up here just to focus 
your attention on the 30,000 or so NATO troops that are engaged 
at great distances in the world.
    This collective will signals that NATO is becoming more 
proactive than reactive, more expeditionary than static, and 
more diverse in its capabilities, and while this emergent NATO 
is to be celebrated, encouraged, and supported, one cannot fail 
to emphasize that the political will to do more is as yet not 
completely accompanied by an equal political will to resource 
in men, money, and material; this new-found appetite.
    Despite nonbinding agreements at the Prague Summit of 2002 
that nations should strive to maintain their defense budgets at 
no less than 2 percent of their respective gross domestic 
products, today only seven nations have achieved this goal.
    Similarly, in terms of manpower pledges of nations for 
support to headquarters and operations, we are currently not 
meeting our goals in that regard.
    Finally, our efforts to procure agreed upon strategic 
capabilities, such as strategic lift, the Alliance ground 
surveillance system, computer information systems and the like, 
have not been funded adequately, thereby perpetuating critical 
shortfalls in the Alliance.
    Encouragingly however, the recently concluded Munich 
Security Conference which you just referred to, Mr. Chairman, 
lent great support to the primacy of NATO as the premier venue 
for transatlantic discussions and future actions with regard to 
security issues. Chancellor Merkel's eloquent speech at the 
conference on Saturday the 4th of February was instrumental in 
the conference's reaffirmation of NATO's enduring value to our 
transatlantic relationship.
    Mr. Chairman, Senator Hagel, it is clear that publics on 
both sides of the Atlantic clearly understood what the Alliance 
represented during the cold war. We were united despite 
occasional ``family disagreements'' around the central anchor 
point of prevailing over the threat posed by the former Soviet 
Union. Regrettably, I doubt that our publics today on either 
side of the ocean fully understand the need, nature, and 
purpose of the Alliance in the post-cold-war era of the 21st 
century. On that score we can and must do better.
    As we head toward the NATO Summit of November 2006, in 
Riga, Latvia, NATO will strive to redefine itself in a world 
facing asymmetric challenges posed by nonstate actors, emerging 
threats to energy supplies, and perhaps critical 
infrastructures, and a requirement for more proactive 
activities, security, stability, and reconstruction to deter 
future crises from developing, all of which include the many 
facets of terrorism and all of which will define NATO's 
activities in 2006 and beyond.
    Our Secretary General, Mr. Jaap de Hoop Scheffer, is 
outlining an ambitious agenda for this year which will include 
new and revitalized partnership programs with special emphasis 
placed on the NATO Russia and NATO Ukraine relationships, 
possibilities for further NATO enlargement in the future, and 
the development of new collective capabilities for NATO's 
military use.
    From an operational standpoint, NATO is experiencing one of 
the busiest times in its history with over 28,000 NATO and non-
NATO troops from 42 nations serving under the NATO flag. We are 
conducting operations on three continents and I believe that 
this operations tempo will continue to increase in 2006.
    In Iraq, NATO has deployed a successful training mission to 
Baghdad to assist the government's efforts to establish 
security and stability. NATO's in-country staff officer mission 
complements the work of the United States-led multinational 
security transition command in Iraq to train Iraq security 
forces. In September 2005, with support from the NATO training 
mission, Iraq opened its National Defense University. NATO has 
also provided numerous training opportunities for Iraqi 
officers and civilian leaders in educational facilities across 
Europe and coordinated the acquisition and delivery of donated 
military equipment from NATO nations to the Iraqi security 
forces.
    In Africa, as I testified before you last September, NATO 
and the European Union jointly responded to an African Union 
request to airlift forces for the African Union mission in 
Sudan from across Africa. NATO generated and coordinated the 
majority of the airlift, provided personnel to assist with 
staff capacity building activities in key African Union 
headquarters, and deployed training teams to work with their 
African Union counterparts. NATO support is committed until May 
2006. A NATO African Union strategic partnership is developing 
and extensions or expansion of NATO support beyond May 2006, if 
requested by the African Union, may be forthcoming.
    Closer to Europe, NATO's only Article V operation, 
Operation Active Endeavor, continues to not only counter 
terrorism and illegal activities in the Mediterranean but 
provides an opportunity for non-NATO partnership for peace and 
Mediterranean dialog nations to enhance their involvement and 
interoperability. In 2006, indeed this month, two Russian 
vessels will deploy to Operation Active Endeavor, join the 
mission along with Ukrainian vessels anticipated next year. 
Formal discussions have commenced on the possible involvement 
of Algerian, Israeli, Moroccan, and Georgian participation as 
well.
    May I take a moment, Mr. Chairman, to underscore the value 
of your trip to Algeria and Morocco just a few months ago to 
assist and to coordinate the release of 404 prisoners and their 
return from Algeria to Morocco which has been the anchor point 
of a resurgence of good will toward the United States in the 
North African region.
    On mainland Europe, we recently observed the 10th 
anniversary of international involvement in the Balkans. 
Through its security sector reform initiatives, NATO has 
successfully set the conditions in the region for the peaceful 
transition to democratic institutions and progress toward 
politically subordinate and reformed militaries. Working 
closely with the European Union, political institutional 
incentives linked to the standards of behavior have encouraged 
Balkan States to recognize the benefits of closer integration 
with the European Union and NATO and led to considerable 
progress in the capture of persons indicted for war crimes, 
however, more work remains to be done in this area.
    NATO's forces in Kosova are undergoing a transition to a 
lighter and more mobile and deployable structure that exploits 
technology and a more agile and better trained force to manage 
the security situation. As the Kosova status talks develop over 
the coming months and consensus is hopefully reached between 
ethnic Kosovar, Albanian, and Serbian communities, NATO should 
be postured to reduce force levels significantly in the 
Province and in the Balkans in general.
    NATO's most ambitious operation, the International Security 
Assistance Force, known as ISAF, currently encompasses half of 
the territorial landmass of Afghanistan and will expand into 
the south and then to the east in 2006. This chart to my left 
is a graphic pictorial of the diversity that is present in 
Afghanistan in the sectors and the stages by which NATO has 
expanded. First, going to the north then to the west near Herat 
and now shortly to the south and then around to the east, if 
you will, in a counterclockwise direction.
    As NATO assumes the responsibility for security and 
stability, its force levels will ultimately surpass that of the 
coalition's and will constitute one of the largest operations 
in Alliance history. It will go from 9,000 troops at present to 
25,000 when expansion is complete. It is envisioned that when 
expansion is complete that the United States will still be the 
largest troop-contributing nation to the mission.
    In ISAF, NATO has built it on the coalition concept of 
provincial reconstruction teams and successfully supported the 
Government of Afghanistan and its Presidential National 
Assembly in provincial council elections. Expansion will 
present NATO with many new and complex challenges but NATO and 
U.S. coalition commanders are working very closely to ensure 
that the transition of responsibility is effective and 
continues to provide credible, professional, and legitimate 
Afghan political and security infrastructures.
    Finally, through its primary transformational vehicle, the 
NATO Response Force, the Alliance attempts to meet emerging 
crises across the full spectrum of military missions at 
strategic distance and in the most challenging of environments. 
Most recently and due to its agility, flexibility, and 
expeditionary nature, the NATO Response Force was selected to 
assist in the humanitarian relief efforts for both Hurricane 
Katrina and in the wake of the Pakistan earthquake. But the NRF 
faces challenges. Force generation efforts for future NATO 
Response Force rotations are not producing a complete and 
balanced force which is a cause for concern. The principle 
reason for this problem, I believe, is that NATO has not 
reformed its 20th century funding mechanisms that require 
nations to pay all costs associated with the transport and 
sustainment of their deployed forces. We have yet to take into 
account the full impact of the 21st century expeditionary 
nature of NATO operations. NATO's funding arrangements were 
appropriate when forces did not deploy outside the European 
theater of operations such as during the cold war. However, 
with operations being conducted today at great distances our 
current approach to resourcing our operations actually acts as 
a disincentive for nations to contribute forces for 
deployments.
    While NATO has made progress in approving revised funding 
guidelines to fund critically needed strategic lift in support 
of this year's NRF certification exercise scheduled for June in 
Cape Verde, Africa, as well as the operational and strategic 
reserve forces, much work remains to be accomplished.
    As we speak today, full operational capability for the NRF 
by October of this year is still at risk.
    As I conclude these opening remarks, I'd like to leave you 
with a final thought. Today the transatlantic security link 
embodied by the North Atlantic Treaty Organization is viable, 
vital, and vibrant. The proposals being considered by the 
nations in 2006, if adopted, will go a long way toward helping 
NATO enhance its increasingly critical role in providing 
collective security and strategic stability. NATO has been, and 
needs to remain, a great alliance. Great alliances should be 
expected to do great things. It is possible, even probable in 
my view, that NATO's most important contributions and most 
important missions still lie in its future.
    Mr. Chairman, thank you very much for the privilege to make 
these opening remarks and I'd be happy to respond to any 
questions you might have.
    [The prepared statement of General Jones follows:]

  Prepared Statement of GEN James L. Jones, Jr., USMC, Supreme Allied 
Commander, Europe (SACEUR), Supreme Headquarters, Allied Powers Europe, 
                             Mons, Belgium

    Chairman Lugar, Senator Biden, distinguished members of this 
committee, I am very grateful for your invitation to come and speak to 
you this afternoon. Today, I am appearing before you as the Supreme 
Allied Commander, Europe; in doing so, I will provide you with a brief 
overview of current NATO activities. In my remarks, I will focus on 
NATO's greatest challenges in 2006, namely the expansion of the 
International Security Assistance Force or ISAF mission across the 
southern and eastern regions of Afghanistan, as well as NATO's efforts 
to bring its premier transformational vehicle, the NATO Response Force, 
to full operational capability. We have distributed to each of you a 
brief summary of NATO's ongoing missions and operations. This will 
provide you a reference as we discuss these topics.
    NATO is rapidly transforming. At the Prague Summit in November 
2002, NATO member nations signaled their recognition of the changing 
security environment and the need to make major shifts in both 
organization and its military capabilities. NATO is making progress and 
is perhaps in the midst of the most fundamental physical and 
philosphical transformation in its history.
    While NATO has achieved some notable success since 2002 in 
transforming its military structure, the Alliance finds itself at the 
stategic crossroads between centuries. Nations of the Alliance, now 
totalling 26, increasingly display greater political will to undertake 
missions at great strategic distances (Afganistan, Iraq, and even 
Africa). This collective will signals that NATO is becoming more 
proactive than reactive, more expeditionary than static, and more 
diverse in its capabilities. While this emergent NATO is to be 
celebrated, encouraged, and supported, one cannot fail to emphasize 
that the political will to do more is, as yet, not accompanied by an 
equal political will to resource--in men, money, and material--this 
new-found appetite.
    Despite nonbinding agreements, at the Prague Summit of 2002, that 
nations should strive to maintain their defense budgets at no less than 
2 percent of their respective GDP, today only seven nations have 
achieved this goal. Similarly, in terms of manpower pledges of nations 
for support to headquarters and operations, we are currently not 
meeting our goals. Finally our efforts to produce agreed upon strategic 
capabilities (i.e., Strat Lift, Alliance Ground Surveillance System, 
Computer Info System) have not been funded adequately thereby 
perpetuating critical shortfalls in the Alliance.
    Encouragingly, the recently concluded Munich Security Conference 
lent great support to the primacy of NATO as the premier venue for 
transatlantic discussions and future actions with regard to all 
security issues. Chancellor Merckel's eloquent speech at the conference 
on Saturday, 4 February, was instrumental in the conference's 
reaffirmation of NATO's enduring value to our transatlantic 
relationship.
    Mr. Chairman, Senator Biden, members of the committee, it is clear 
that publics on both sides of the Atlantic clearly understood what the 
Alliance represented during the cold war. We were united, despite 
occasional ``family disagreements,'' around the central ``anchor 
point'' of prevailing over the threat posed by the former Soviet Union. 
Regrettably, I doubt that our publics today, on either side of the 
ocean, understand the need, nature, and purpose of the Alliance in the 
post-cold-war era of the 21st century.
    As we head toward the NATO Summit of November 2006 in Riga, Latvia, 
NATO will strive to redefine itself in a world facing asymetric 
challenges posed by nonstate actors, emerging threats to energy supply 
and perhaps critical infrastructures, and a requirement for more 
proactive activities (security, stability, and reconstruction) to deter 
future crises from developing--all of which include the many facets of 
terrorism, and all of which will define NATO's activities in 2006 and 
beyond. NATO Secretary General de Hoop Scheffer is outlining an 
ambitious agenda for this year, which will include new and revitalized 
partnership programs, with special emphasis placed on the NATO-Russia 
and NATO-Ukraine relationships; possibilities for further NATO 
enlargement in the future; and the development of new collective 
capabilities for NATO's use.
    From an operational standpoint, NATO is experiencing one of the 
busiest times in its history, with over 28,000 NATO and non-NATO troops 
from 42 nations serving under the NATO flag. We are conducting 
operations on three continents, and I believe that this operations 
tempo will continue to increase in 2006.
    In Iraq, NATO has deployed a successful training mission to Baghdad 
to assist the government's efforts to establish security and stability. 
NATO's in-country staff officer mission complements the work of the 
U.S.-led multinational security transition Command-Iraq (MNSTC-I) to 
train Iraqi security forces. In September 2005, with support from the 
NATO training mission, Iraq opened its National Defense University. 
NATO has also provided numerous training opportunities for Iraqi 
officers and civilian leaders in educational facilities across Europe 
and coordinated the acquisition and delivery of donated military 
equipment from NATO nations to the Iraqi security forces.
    In Africa, as I testified before you last September, NATO and the 
European Union jointly responded to an African Union (AU) request to 
airlift forces for the AU mission in Sudan (Darfur) from across Africa. 
NATO generated and coordinated the majority of airlift, provided 
personnel to assist with staff capacity-building activities in key AU 
headquarters, and deployed training teams to work with their AU 
counterparts. NATO's support is committed until May 2006. A NATO-AU 
strategic partnership is developing, and extensions or expansion of 
NATO support beyond May 2006, if requested by the AU, may be 
forthcoming.
    Closer to Europe, NATO's only Article V operation, Operation Active 
Endeavour (OAE), continues not only to counter terrorism and illegal 
activities in the Mediterranean, but provides an opportunity for non-
NATO ``partnership for peace'' and ``Mediterranean dialogue'' nations 
to enhance their involvement and interoperability. In 2006, Russian 
vessels will deploy to OAE, with Ukrainian vessels anticipated in 2007. 
Formal discussions have commenced on the possible involvement of 
Algerian, Israeli, Moroccan, and Georgian participation as well.
    On mainland Europe, we recently observed the 10th anniversary of 
international involvement in the Balkans. Through its security sector 
reform initiatives, NATO has successfully set the conditions in the 
region for the peaceful transition to democratic institutions and 
progress toward politically subordinate and reformed militaries. 
Working closely with the European Union, political and institutional 
incentives linked to standards of behavior have encouraged Balkan 
States to recognize the benefits of closer integration with the EU and 
NATO and led to a considerable progress in the capture of persons 
indicted for war crimes. However, more work remains to be done in this 
region.
    NATO's Forces in Kosovo are undergoing a transition to a lighter, 
more mobile and deployable structure that exploits technology and a 
more agile and better trained force to manage the security situation. 
As the Kosovo status talks develop over the coming months and consensus 
is hopefully reached between ethnic Kosovar Albanian and Serbian 
communities, NATO should be postured to reduce force levels 
significantly in the province and in the Balkans in general.
    NATO's most ambitious operation, the International Security 
Assistance Force (ISAF), currently encompasses half of the territorial 
landmass of Afghanistan and will expand into the south and then the 
east in 2006. As NATO assumes responsibility for security and 
stability, its force levels will ultimately surpass the coalition's, 
and will constitute one of the largest operations in Alliance history--
from 9,000 troops at present to 25,000 when expansion is complete. It 
is envisioned that when expansion is complete, the United States will 
be the largest troop-contributing nation to this mission.
    In ISAF, NATO has built on the coalition concept of provincial 
reconstruction teams and successfully supported the Government of 
Afghanistan in its Presidential, National Assembly, and Provincial 
Council elections. Expansion will present NATO with many new and 
complex challenges, but NATO and U.S. coalition commanders are working 
very closely to ensure that the transition of responsibility is 
effective and continues to develop credible, professional, and 
legitimate Afghan political and security structures.
    Finally, through its primary transformational vehicle--the NATO 
Response Force (NRF)--the Alliance attempts to meet emerging crises 
across the full spectrum of military missions, at strategic distance, 
and in the most challenging of environments. Most recently, and due to 
its agility, flexibility, and expeditionary nature, the NRF was 
selected to assist in the humanitarian relief efforts for both 
Hurricane Katrina and in the wake of the Pakistan earthquake.
    But the NRF faces challenges. Force generation efforts for future 
NRF rotations are not producing a complete and balanced force, which is 
a cause for concern. The principal reason for this problem, I believe, 
is that NATO has not reformed its 20th century funding mechanisms that 
require nations to pay all costs associated with the transport and 
sustainment of their deployed forces. We have yet to take into account 
the full impact of the 21st century expeditionary nature of NATO 
operations. NATO's funding arrangements were appropriate when forces 
did not deploy outside the European Theater of operations, such as 
during the cold war. However, with operations being conducted today at 
strategic distances, our current approach to resourcing our operations 
actually acts as a disincentive to nations contributing forces for 
deployments. While NATO has made progress in approving revised funding 
guidelines to fund critically needed strategic lift in support of this 
year's NRF certification exercise, scheduled for June in Cape Verde, as 
well as the operational and strategic reserve forces, much work remains 
to be accomplished. As we speak today, full operational capability for 
the NRF by October is at risk.
    As I conclude these opening remarks, I'd like to leave you with a 
final thought: Today, the transatlantic security link embodied by the 
North Atlantic Treaty Organization is viable, vital, and vibrant. The 
proposals being considered by the nations in 2006, if adopted, will go 
a long way toward helping NATO enhance its increasingly critical role 
in providing collective security and strategic stability. NATO has 
been, and needs to remain, a great alliance. Great alliances should be 
expected to do great things. It is possible, even probable in my view, 
that NATO's most important contributions and most important missions 
are still in its future.

    Mr. Chairman. Well, thank you very much, General Jones. 
We'll have rounds of questions and alternate between Senator 
Hagel and myself and others who may join us during the course 
of the questions.
    Let me begin by mentioning as you have, that the NATO 
countries have affirmed that the success of NATO and the 
success of ISAF are vital to their security interests. They've 
accepted the fact that the defense of Europe is not the issue, 
that threats to NATO countries are from outside. Describe what 
you find to be the political difficulties that lead to this 
budget situation that you described in which 2 percent of GDP 
has been strongly suggested as a level of support. NATO nations 
have regularly agreed with that, but only seven nations have 
met that in the current year.
    Now, just anecdotally reading the press, I think we all 
understand that each nation in NATO has very pressing needs for 
health care, education, and a social safety net for the elderly 
and the poor. The demands of publics in each of those countries 
are insistent with regard to these. The rate of economic growth 
in some of the NATO countries has been limited even in the 
larger countries. They have devoted maybe 1 percent, as opposed 
to the 3 or 4 percent the United States has to their military 
budgets, so there's some constrictions there, obviously, in 
terms of income. You must feel this almost each day of your 
leadership as you work with these various countries. Is it 
going to be possible realistically for countries to measure up 
to the 2 percent level?
    And then second, the other challenge you've mentioned. If 
we are going to operate out of area, the forces and the backup, 
the logistic support will literally be lifted to the area. At 
the time of the first conflict stages in Afghanistan, 
frequently NATO nations complained that they were not being 
called upon, that Article V had been invoked and yet their 
sacrifices were not being requested. But the practical answer 
to that frequently was that there was no ability on the part of 
the nations to literally lift their forces to Afghanistan or to 
the theaters that might be involved. It is not clear that that 
has changed materially.
    So address, if you will, the political factors, and the 
likelihood of countries overcoming those to get to the level of 
support that seems to be accepted as the budget's standard, and 
then the lift of capacity, the communications support, quite 
apart from the infrastructure, to get to the places outside of 
Europe.
    General Jones. Thank you, Mr. Chairman. These are pressing 
problems in the Alliance and I might just start off by saying 
that such problems are understandable in the context of what 
NATO was built to do in the 20th century versus what we're 
asking it to do right now. Large fixed land masses, heavyset 
tank divisions massed along the border to defend against 
possible attack by the Warsaw Pact countries was the order of 
the day and NATO never really had the ambition to move to very 
long distance. Our response to an invasion was defensive. It 
would have been massive but it was defensive. We never really 
developed a force to take the first strike, if you will, at 
least with the land armies.
    So with the disappearance of the Soviet Union we found 
ourselves with this very, very large fixed organization, static 
organization, and, also if you will, a mentality that 
essentially said, well, we don't use NATO until we have to 
react to something and if there's nothing there then so much 
the better. And so NATO's ability to take this large static 
force and transform it into something that you see on this 
chart to my right, and the various distances, was really not 
something that could be done overnight. That kind of 
transformation, especially with 19 countries and now 26, is 
very hard to do, and many of our Warsaw Pact--former Warsaw 
Pact, now member nations--had very large land armies also built 
on the idea that they would never leave the European landmass. 
Many of them are conscripted armies. The idea of a professional 
force was certainly not in their vocabulary when they became--
until they became NATO members.
    So part of the challenge is how do you retool the force so 
that it can be useful and how do you convert the apparatus that 
supports all of this, the budgeting, the funding, not only in 
the NATO community but also in each nation, and those problems 
are different. It's hard for me to speculate as to whether we 
can achieve 2 percent. On the face of it, I would think we 
could. It doesn't seem to be--it doesn't seem to be an awful 
lot to ask given what NATO is about to do, but, obviously, 
nations have a difficult time doing that. Part of the problems 
that they have doing that is that many of them have invested 
certain ways.
    For example, certain countries have--of their budget--are 
paying 70 to 75 percent of their defense budget on salaries, 
for example. When you are past 50 percent on manpower costs, 
you really have little ability to do much of anything else by 
way of transformation. I can honestly say that I believe that 
every country is really trying to do the right thing. It's just 
takes a while to turn the ship around. I would be hopeful that 
we can see the budget's turnaround, particularly in the face of 
these threats and I think as NATO reinvents itself and 
reexplains itself to our publics, I think that there will be 
more of a demand that NATO, as an alliance, be asked to do more 
things in a proactive way, in a crisis preventive mode, in a 
security mode, than it has been in the past.
    But that's going to take time and it's going to take 
concerted political leadership to convince 26 nations that this 
is something that clearly has to be done. So, on the one hand, 
we can be optimistic and glad that the Alliance is doing what 
it's doing, and on the other hand, we do have to realistically 
put forth some concerns that we can't keep going in the way of 
doing more without being able to change the way we fund these 
operations.
    And having said that, I'd like--I also support the 
Secretary General of NATO in his efforts to bring about some 
aspects of common funding to our operations instead of leaving 
the full cost to the nations who generously provide their 
forces. And certainly the smaller nations would be victimized 
by that because they will never have the budgets to be able to 
provide rotating battalions and squadrons, especially as our 
missions tend to be for longer duration and over great 
strategic distances.
    With regard to out-of-area operations, this is, in fact, a 
new era for NATO and because we are still largely tooled for 
the other century where nations were responsible for the total 
expense and total support of their deployed forces, we now have 
what we call national support elements that follow the national 
forces, not under NATO but under national command to provide 
the logistics, to provide the capabilities and the support that 
their forces need at these great distances.
    So in order to bring about greater efficiencies, we are, 
for the first time, working at multinational logistics, 
multinational intelligence architecture, multinational 
communications that are fully interoperable, and multinational 
common funding ideas for such things as strategic airlift and 
other things that we currently have as a major shortfall.
    I think we'll make good progress in that, toward that. I 
think that this is something that the Alliance will discuss 
during the balance of the year and perhaps by the NATO Summit 
we can get some decisions that will move NATO into that 
direction.
    The Chairman. Let me ask, given the debate that goes on in 
our own government about the future of our Armed Forces, 
certainly thought has been given to the fact that large fixed 
armies, large groups of people moving in what used to be 
conventional ways, may not be appropriate for the kinds of 
threats the United States seems to find with cell groups, 
insurgents, guerilla warfare. Therefore, the need for 
flexibility, the need for very different kinds of instruments 
of war is required. You're describing, I think correctly, the 
fact that European countries had fixed armies that did not 
anticipate going anywhere. We're going to defend the heartland, 
or at least the neighbors. Suddenly they try to transform to a 
situation in which they might have to go somewhere and have 
logistics support. The issue probably arises for them now, what 
about the debate in the United States? How does this influence 
our military doctrine if we're going to fight insurgents or 
cell groups?
    While we're in the midst of this great reorganization, what 
sort of training do we undertake, or what kind of missions are 
likely in terms of threats to us? We've defined the whole issue 
as being no longer necessarily the defense of Europe but the 
meeting of threats well outside of Europe.
    I'm just curious, as the NATO commanders meet, or the 
national leaders and so forth, leaving aside the summit, a 
conspicuous meeting of this sort, is there discussion of 
military doctrine within these countries? Given the number of 
them and the number of varieties of debates, I suspect this 
makes the cohesion of all of this, the leadership of NATO, 
especially daunting. But if you can, as an insider, describe 
really what is going on.
    General Jones. Mr. Chairman, it is daunting but there's a 
lot of energy associated with these discussions. The fact of 
the matter is that when it comes to transformation most, if not 
all, of our allies take a keen interest in what it is the 
United States is doing and through--and fully understand where 
we were and where we've come in transformation and study very 
closely the general trend lines and most specifically 
associated with joint forces command in Norfolk which is the 
center of our transformation.
    In my theater in the NATO context and in the European 
command, the components, Army, Navy, Air Force, and Marines, 
play a dominant role in assisting our allies in achieving 
interoperability and achieving transformational capabilities, 
and that's why our forward basing in Europe is still very, very 
important. It certainly does not have to be as robust as it was 
during the cold war but the footprint that we've proposed for 
UCOM's transformation will allow us greater strategic agility 
with the forces that we have at greater strategic distances. 
The types of--for the foreseeable future the types of threats 
that we face will be better defeated by proactive presence and 
chosen very carefully, obviously, but by engaging with our 
allies in a concerted effort to bring about transformation in 
regions that left unattended could be the next, the future 
Afghanistans and Iraqs in the next 10 or 15 years.
    And so I would say, that one of principal elements of 
transformation of NATO is that there's a greater understanding 
that mass does not equal capability. It's what you're able to 
do with what you have that matters, and in that context we are 
also telling new members like the Baltic States, asking them 
not to invest in air forces since we have enough and we--by 
Article V--we guarantee their security anyway.
    So there's an awful lot of dialog going on and countries 
are very focused. They are transforming their forces, they are 
shrinking the mass and trying to develop new capabilities.
    Where I get concerned is where they reduce their forces and 
size and also reduce their budgets. To me that's not 
transformation, it's just--that's lesser capability. The value 
of transformation is to reduce the mass of your force, maintain 
your budgets if not increase the budgets, and then apply those 
savings toward new technologies and capabilities. The countries 
that are doing that are making great contributions. So my 
feeling is we're moving in the right direction. We need to do 
the things that I mentioned in my opening statements to 
accelerate it, but generally this is a new concept and, as I 
mentioned, I think we have two kinds of transformation in the 
Alliance, one physical and the other cultural. What do you do 
with the forces that you have, what is NATO willing to do with 
it? Are we really willing to be a proactive alliance which I 
think is really the destiny of our future operations.
    The Chairman. I'd like to recognize Senator Hagel for 
questions.
    Senator Hagel. Mr. Chairman, thank you, and again, General 
Jones, welcome. I would add my recognition to the sergeant 
major who is seated behind you for his years of contributions 
and service to our country. Sergeant Major, thank you.
    When I was in the Army for a brief time, generals always 
scared me but sergeant majors frightened the hell out me and I 
don't think that has ever changed.
    But it is because of the sergeant majors of our Armed 
Forces as you have appropriately recognized General Jones, that 
we have built the finest noncommissioned officer corps really 
in the history of the world and it's because of people like the 
gentleman sitting behind you who have been responsible for 
that, so thank you.
    I would also like you to say hello to General Wald and 
thank him for his service and for all the good work that he has 
done for our country and continues to do. Much of what you have 
reflected on here, as you know better than anyone, General 
Jones, has been because of the relationship that you and 
General Wald have had, and the work that he has given and the 
leadership he's provided. So please give General Wald our 
thanks as well.
    As you know, because of you and General Wald, General 
Jones, I've had some opportunities over the last few years to 
spend some time with you and your team in some of the areas 
that you have noted in your statement and I have seen firsthand 
the kind of work and imagination and focus that you have 
brought to our efforts in relationship with our partners in 
NATO and they are transformational, yes, but they are really in 
line as much as any time, I think, in the history of our 
country or the world with the changing dynamics of challenges 
and opportunities that face all of us.
    In respect to that point, as you have noted in your opening 
comments and as I had an opportunity to read your white paper 
this morning which you have given us. Would you expand a bit on 
the concept that you've talked about here on potential NATO 
partnerships outside the boundaries of the original concept of 
NATO. You, I think, referenced Australia, Japan, other 
relationships. How would that play out, what kind of 
commitments would be born and expected, what kind of mission 
statements might be included in that? Thank you.
    General Jones. Senator, thank you very much for mentioning 
General Wald who is the deputy commander of the United States 
European Command and who's been there just a little bit longer 
than I have. That's slightly over 3 years. There isn't a day 
that goes by that I don't give thanks for General Wald and his 
leadership of UCOM.
    As you know, his headquarters--our headquarters is in 
Stuttgart, Germany. NATO's military headquarters is in Mons, 
Belgium, and I find myself spending most of my time either in 
Belgium or in some country around our 91 country area of 
operation and it is a source of immense gratification and 
confidence and pleasure that I've had the privilege of working 
with Chuck Wald for the last 3 years.
    Most of the initiatives that have really taken off and 
blossomed concerning Africa have been as a result of the vision 
and the efforts and the persistency of Chuck Wald. Similarly, 
our U.S. interests in the Caspian Guard initiatives in the 
Caucasus also are the product of his tenacity and his vision. 
He's an extraordinary member of the Armed Forces, an 
extraordinarily gifted leader, valued friend, and is really 
the--really deserves much, much of the credit of anything good 
that UCOM is doing and I'm very grateful to have had him for 
these 3 years.
    The prospect of future partnerships in NATO is one of the 
subjects that the Secretary General is interested in developing 
as we head toward the summit in Riga in November. As you can 
see by the map on Afghanistan, you'll see a number of flags 
there that represent non-NATO countries. In fact, in the north 
and in the west of Afghanistan right now, which is NATO's area 
of operation, we have 35 countries operating in partnership 
with NATO. As you know, we're an alliance of 26 so 9 countries 
in addition to our NATO members are working with us.
    Australia, which you mentioned in your question, is 
scheduled to join in the expansion toward stage three in the 
south, later on this year in the summertime, and so we have a 
tradition now in habitual relations of associations with 
different countries. As you know, we have a standing committee 
for Russia and the Ukraine. As I mentioned, we're joining two 
fully qualified interoperable Russian warships to Operation 
Active Endeavor this month in the Mediterranean. So the 
precedent of working with other countries from geographically 
diverse regions in the world is there. It works, it's 
effective, it will be a political decision in NATO as to how 
they wish to formalize that in however way. I wouldn't be able 
to predict how that might come out but clearly the appetite and 
the trend is for more such relationships and at the military-
to-military level, of course, that's a good thing. So we'll 
just have to wait and see how it turns out but there are many 
countries on the books that are trying to have a formal 
relationship with NATO. The last one to come to my attention is 
President Karzai wishes to have a formal relationship with NATO 
for Afghanistan. We'll just have to wait and see how that works 
out politically but the appetite to welcome offers from other 
countries is certainly there.
    Senator Hagel. Thank you. The Russian relationship that you 
have just noted in using a couple of examples of the military-
to-military relationship, depending on a number of 
uncontrollables and dynamics that will unfold as the world 
evolves over the next few years, how do you see a relationship 
with Russia developing in the context of NATO, what we saw over 
the last few years how Russia was absorbed into, at least, a 
framework of a relationship. It appears that it has worked 
pretty well evidenced by the continuation of the military-to-
military relationship. How do you see that evolving?
    General Jones. Well, whether my answer is as a U.S. officer 
or as NATO officer, it will evolve in the context of political 
guidance and approval. Having said that, the approval and the 
guidance that we have has allowed for a evolving relationship 
that has been very satisfying on both counts.
    And, of course, our counterparts in Russia would obviously 
not be authorized to engage as they are with either NATO or the 
United States European Command had they not had their political 
approval as well. So in NATO I've had official exchanges with 
my counterpart in Moscow, have been received in Moscow as a 
NATO commander. I've received him in Mons as the Chief of 
Defense of the Russian Federations Armed Forces. More of those 
are scheduled to take place. The NATO/Russia level of ambition 
is for, I think, around 50 measurable events this year for 
working toward achieving greater interoperability. We have a 
good working dialog and I have a Russian general officer and 
his staff permanently at SHAPE to work on these mutual issues. 
In the United States European Command, we have under the 
leadership of General Bell, who I asked to take the lead 
because it's primarily an army-to-army relationship but 
although not limited exclusively to that. General Bell, who 
recently left for new duties in Korea, was absolutely 
instrumental in developing a very, very good relationship which 
resulted in, among other things, Russian NCO's coming to school 
at our base at Grafenwoehr, Germany, and going through NCO 
courses, lectures by the sergeant major of the United States 
Army Europe at the Russian Military Academy about NCO's and 
their role in the American Army, and many, many such exchanges 
of Russian military personnel and U.S. personnel which have 
been very satisfying and, I imagine, that will continue, 
certainly as far ahead as I can see, through the rest of this 
year.
    So within the context of what our respective governments 
authorize us to do, I think we're doing some good things and 
building long-term ties and relationships between people at all 
levels who know each other, understand each other, and 
gradually I think the mystique or the mysterious element 
between--that might have existed at some point is dissipating 
in terms of the military to military relationships.
    Senator Hagel. Thank you. You noted in your remarks and 
then certainly it's in the white paper of Sudan, Darfur, NATO's 
role evolving especially in lift capacity and other areas of 
support. What do you gauge as the most significant threat to 
the continent of Africa when you look at as you also noted oil, 
natural gas resources on the west coast, other significant 
geopolitical strategic factors there?
    In answering that if you would also address NATO's 
involvement now, their continued involvement, how training, 
what is appropriate, and any way you'd like to enlarge upon 
that.
    Thank you.
    General Jones. Africa is such an immense continent and it's 
one that I have grown more and more interested in as I spend 
more time in Europe. And, of course, the UCOM European Command 
has responsibility for the majority of Africa with the 
exception of the Horn of Africa which is a central command 
responsibility, but I'd like to add very quickly that General 
Abizaid and I have made the lines that exist in the unified 
command line virtually blurry because where his interests end 
or where mine begin and when mine end and his begin are very, 
very soft lines and we work very well together, both commands 
work very well together to make sure that we do the right thing 
and help each other be successful.
    And in that context, missions like the Joint Task Force 
Horn of Africa, to me are symbolic of, and representative of, 
the types of missions that we're likely to be engaged in for 
the foreseeable future after the shooting stops in Iraq and 
Afghanistan. This JTF Horn of Africa has done some very, very 
important things for the region that they're involved in.
    And I guess the way to answer your question, Senator, is 
that for a continent like Africa it seems to me that a regional 
approach is absolutely vital because the African Union, and 
indeed Africans, now see themselves as five different regions. 
And that seems to be a good way, I think, to address the future 
of Africa.
    I wouldn't say that the threats that face Africa can be 
encompassed in one or two words because it depends on what 
region we're talking about. The ones that I know best, 
obviously, are North Africa and Sub-Saharan Africa and Western 
Africa. I'm learning about others, as we all are, but one of 
the things I've been impressed with is that in North Africa and 
Sub-Saharan Africa the common concern by all of those countries 
is what's going on inside their borders that they might not 
know about. They're concerned about the spread of radical 
fundamentalism, they're concerned about the recruiting of 
warriors for the fundamentalist movement to not only be trained 
in their vast ungoverned spaces in some cases, but also 
migrating to fight in Iraq and Afghanistan and then coming back 
to Africa to their countries to destabilize their countries.
    The United States has been working very closely with the 
North African and Sub-Saharan African countries, the majority 
of them, and has been very helpful in helping them train their 
Armed Forces, understand their--what's going on in their 
countries using our own assets and others and providing the 
means by which we can help them help themselves in capturing 
terrorists and people that are wanted by a number of 
governments and who are now behind bars.
    In West Africa, obviously in Nigeria, you have a consortium 
of approximately 10 nations in an area that, I think, is worthy 
of significant attention by the United States because of its 
immense potential from an energy standpoint, but also from the 
standpoint of how we would like the future to be shaped there. 
Nigeria, as an example, is a country that has a northern half 
that is Muslim, a southern half that is Christian. It's a 
country that's the seventh largest oil producing country in the 
world but it is a country that has--I think it's widely 
recognized--has a series of problems; recently had a fairly 
significant hostage situation. At sea there are problems 
associated with piracy.
    One oil company executive, whose company works out of 
Nigeria, has told me that his company plans on losing $1 
billion in revenue each year due to illegal bunkering--that's 
to say tapping of their pipelines. So this is an important 
region for the world, really, and for our own domestic 
interests and, I believe, that in those areas and elsewhere in 
Africa, that we have a great opportunity to invest our assets, 
use our forces, at fairly low level of financial--from a 
financial expense standpoint and to achieve results far out of 
proportion to the investment.
    Put another way, I believe that the correct strategy for 
Africa is to be more proactive and less reactive. Using Liberia 
as an example where we seem to go to Liberia every 5 years to 
fix something, our strategy now is to help Liberians help 
themselves but with a continual level of engagement, very low 
level: Special Operations Forces, Marines, engineers, the 
correct advisors to help their security structures take hold 
and do the things that we can to help these struggling 
democracies so that they can be successful over the long haul.
    Obviously, in Africa, the American military is not going to 
solve the whole problem and I believe that the future in such 
areas will be--we will be successful to the extent that we can 
integrate all aspects of our national influence and so the 
future from my standpoint in engagement and in theater security 
strategies should be one that is much more cohesive, much more 
all-encompassing in terms of our interagency, much more 
understandable by all of us so that we understand what our 
purposes are, and I would advocate that more empowerment at the 
regional level from the standpoint of resources to bring about 
change in a rapid--as rapid a manner as possible.
    Senator Hagel. General Jones, thank you. Mr. Chairman.
    The Chairman. Thank you very much, Senator Hagel. Let me 
just pick up for a moment on the African discussion because 
both in my opening statement and you in your opening statement, 
General Jones, have discussed briefly our trip this summer. I 
want to just, for the record, give an illustration of the 
importance of General Jones' command and NATO in Africa. The 
specifics of my going to Africa were because the National 
Security Council and the White House were hopeful, because of 
conversation with President Bouteflika of Algeria, that the 404 
remaining Moroccan prisoners held by the Polisario, not under 
control of Algeria but with influence, might be released 
because of the desire for better relations between President 
Bouteflika and the King of Morocco. So this went on and off 
several times. We finally were on again, but the circumstances 
were such that President Bouteflika felt, after a 3-hour 
conversation that we had that he would not be able to accompany 
me to the Polisario as had been the original plan. Our 
Ambassador, because we do not recognize the Polisario, could 
not go down 500 miles into the desert either. To the rescue 
came General Jones who could. Now, his ability to do this came 
because of the nature of his command. Even more importantly, 
General Jones was able to furnish two large aircraft at the 
airport there in Tindouf and 38 marines aboard the aircraft. 
Logistically, and practically, that was tremendously important. 
In the event we got the 404 prisoners out of the camp. Some of 
them were in very dire straits in terms of their medical 
condition. Many had been prisoners for over 20 years in the 
desert. That was a remarkable feat.
    I mention these things because of the flexibility to be 
able to do these things and General Jones' own flexibility in 
terms of schedule, the aircraft, the fact that it did work. It 
was the time the Polisario wanted to release people, and so 
they were released. And then we found, as the General will 
recall, that the King of Morocco, who we anticipated would be 
excited about the situation, was, in fact, giving public 
statements of enragement, once again venting his thoughts about 
the Algerians and what they had meant all this time.
    Nevertheless, at the airport, when the people came off the 
planes and we greeted them warmly, in good campaign style and 
so forth, the Moroccan officials responded to this, formed a 
line, began shaking hands, much to their credit in the Moroccan 
press. The King did decide to have a meeting the next day and 
General Jones was available for that meeting. He went with me 
and our Ambassador to see the King, which was very important to 
try to seal the sense of good will that came from our mission 
and likewise from his, both as an American but more 
importantly, in this case, as the NATO commander.
    And I mention all of these things, and I could mention 
more, to illustrate that the range of NATO now is very broad. 
Much of the excitement that I see has come from General Jones' 
leadership, and that of his other persons with him who have 
seen the possibilities. In this case, two Muslim countries, one 
of them very energy rich, all with traditions of various sorts, 
next door to some other countries that are difficult--a very, 
very important area.
    Now, let me just progress from that discussion to something 
altogether different. And that is that it's been suggested that 
not all nations in NATO necessarily have the same military 
doctrines or goals. It may be unfair, but let me just ask 
frankly. It's been suggested, for example, that the French do 
not believe that NATO should be involved in counterinsurgency 
operations. If that is true, fair enough. If it's not, please 
expunge it from the record. But are there differences, as we go 
into these new missions, and counterinsurgency is a part of it, 
the guerrilla fighting or the breakup of cells, are there 
arguments over what the role is, or what kind of tactics 
certain countries will have, as opposed to others? How in the 
world do you put together a force under those conditions?
    General Jones. Thank you, Mr. Chairman. As you well know, 
in the Alliance of 26 countries, all of whom must agree 100 
percent before you embark on any mission, all of whom must 
agree on the rules of engagement for that mission, and all of 
whom can provide their forces and attach certain restrictions 
on the use of those forces in support of those missions, this 
is--this presents--as the Alliance gets bigger and bigger, it 
presents obviously a bigger and bigger problem for all of us.
    Everybody in NATO, all members understand that for 
commanders to be successful, they have to have a force with a 
clearly defined mission and as few impediments in accomplishing 
that mission as possible. However, in the case of some of our 
missions, notably Afghanistan and Iraq, where there are 
political differences, very serious political differences, it 
is possible to get an agreement on the missions and yet have 
countries decide to either opt in or opt out depending on their 
national policies. To their credit, they don't wish to derail 
the mission but they do reserve the right to participate in the 
way that they see fit. And such is the case in Afghanistan.
    There are different views in the Alliance, some born over 
the history of the Alliance, as to how NATO itself should be 
used, whether or not NATO should be proactive in its use or 
whether it should largely be reactive. There are different 
views on how the NATO Response Force, which is really the 
transformational engine of change in the Alliance that was 
agreed upon in the Prague Summit of 2002 how that force should 
or should not be used. This is all part and parcel of NATO's 
general trend toward transformation and doing things 
differently and thinking about things differently for its 
future.
    In the case of Afghanistan, we have come up with a solution 
of a command structure that will allow for NATO to expand to 
full control of the entire operation. It will be a NATO 
operation. The United States will be one of the contributing 
countries. I would imagine that by the time we finish this, 
sometime this year, that the commander of the operation will be 
a British officer and we will have a NATO operation that will 
take on the whole spectrum of conflict, less the more 
aggressive hunt for the terrorists and notably the more 
aggressive counterterrorism mission.
    NATO's preference is to focus on the antiterrorism which is 
more defensive in nature and we are--we have reached a 26-
member consensus on how to do that. It provides for a direct 
line to General Abizaid, who will command the forces that have 
signed up for that particular mission, and a system whereby all 
the others will report to the commander of the NATO forces for 
the balance of those missions. And we have figured out how to 
deconflict the two and to live in--to make it cohesive and to 
make it effective. And so I'm not--I have no doubt that we'll 
be successful in doing that.
    But to get back to your question, there are differences of 
views at the national political levels of what NATO should or 
should not do. It's not necessarily just always about 
counterterrorism. There are different views as to whether NATO 
should engage in the training of police forces, for example. 
The training of a police force is a significant problem in 
Afghanistan. It has not gone--it is not as advanced as the 
training of the Afghan National Army, for example, and there 
are different views on whether NATO should do a mission like 
that. There are different views on whether NATO should 
participate in counterdrug operations. The biggest problem in 
Afghanistan has to do with counterdrugs. There are strong views 
in the Alliance as to what the role is for NATO in that 
campaign as well.
    This is the essence of NATO. It's--we eventually come to an 
agreement----
    The Chairman. As you point out there's shifting around 
forces to begin with. And we've described that business of 
evolution. The discussion of missions probably also is an 
agenda item as the countries come together. I think you've 
described well the pragmatic decision you've come to in 
Afghanistan. It may not be the same one you would come to in 
country ``X'' or ``Y'' or what have you down the trail because 
that might evolve likewise.
    General Jones. Yeah. I should add, Mr. Chairman, if I 
could, that the counterterrorism is a recognized mission under 
NATO doctrine. As a matter of fact, Operation Active Endeavor 
is an Article V counterterrorism mission that many nations 
participate in, albeit a naval mission.
    In the case of France--France has 250 special operations 
soldiers working under United States command in Afghanistan on 
the counterterror mission itself, so on the aggressive end of 
things.
    The Chairman. That's an important point to make.
    General Jones. It's a mixed--while France may have a 
different view on what NATO should be doing, I think we should 
point out that France is the third largest contributing nation 
in terms of troops to all NATO missions and is providing very, 
very--has now for several years provided some very fine forces 
in support of our counterterrorist operations in the more 
difficult missions in Afghanistan.
    The Chairman. Can you go a little bit further into another 
potential mission? There have been hints in the last few months 
that from time to time energy resources might be utilized for 
national strategic purposes, namely, that the country may cut 
off energy resources to another country. And this is an act 
that does not involve aircraft flying over a country or tanks 
coming through or troops on the ground, but in a strategic 
sense of national welfare or betterment, it could be 
devastating, given the dependance that so many European 
countries have on Russia, specifically. Algeria, for example, 
is, I understand, the second largest supplier of natural gas to 
Europe, one of the other areas in which you have been working 
quietly and strategically.
    What kind of discussion, if any, has proceeded in NATO 
channels about those sorts of threats, which are entirely 
different from military aggression or even insurgency or cells 
of terrorists and so forth, but potentially devastating to the 
welfare and the economies of countries, maybe even their vital 
being if they're a small country? What is to be done with 
regard to this?
    General Jones. Mr. Chairman, the discussions on those 
issues are currently ongoing. As a matter of fact, some of the 
Verkunde Conference in Munich, this weekend, was devoted to 
that. Mr. Sergey Ivanov from Russia was there, the Deputy Prime 
Minister, to answer questions which are very topical given the 
recent temporary disruption of oil coming from Russia which 
sent some shock waves through Europe, as well, because they 
fully realize the extent of their dependance on Russian gas.
    This topic is developing, literally as we speak, and I 
think the Allies, the member nations, are, in fact, now very 
interested in not only the implications of the cut-offs, if you 
will, or the manipulation that could be made politically of 
something that could be very, very destabilizing to various 
economies. But also they are considering what it is that an 
organization like the North Atlantic Treaty Organization could 
do to assure the security of the delivery of energy and also 
the protection of some of our critical infrastructures at the 
strategic level.
    This is a question of trying to decide where national 
responsibilities end and the strategic Alliance 
responsibilities might begin. Very embryonic discussions but 
certainly very topical in terms of the timing and ongoing as we 
speak, the Secretary General and the Ambassadors are 
considering just what part of the coming summit in November 
this should play.
    So to me this is part and parcel of gradual recognition 
that rather than just sit back and wait for things to happen, 
what are the things--the question is what are the things that 
NATO could be doing to preclude bad things from happening, and 
what is it that we could do to affect the landscape, is really 
gradually emerging.
    I think one of the things that people are concerned with 
is, obviously, not only the flow of energy but the fact, the 
possibility that nonnation state actors, terrorists for 
example, could significantly impede the flow of oil through 
terrorists actions. And the question comes, what is it that an 
organization like NATO could do to assure those kinds of 
securities as well as the destination points to where the 
energy comes, whether it's by sea, by land, by train, by air, 
by truck. Those kinds of questions are now being discussed and 
I think that's very healthy and it's certainly a way I think 
that NATO can better explain itself to its publics in the 
future.
    The Chairman. Yesterday, I had the privilege, at the 
invitation of our Ambassador to NATO, to address the Security 
Council of the United Nations. I talked about the energy 
situation that you describe as sort of embryonic in your 
policy. I suggested that it might be for the Security Council 
an embryonic situation as they take a look at their 
responsibilities.
    The other suggestion is an older one, and that is that with 
regard to weapons of mass destruction, each country that has 
them ought to declare what it has, secure what it has, and call 
upon the assistance of others if you don't have the money and 
the technical expertise to do that, and then to think 
carefully, as the Non-Proliferation Treaty participants are 
doing, about the legitimate needs of people for energy.
    For example, Europeans may say that one way out of the jam 
is to have nuclear powerplants, more of them, built on European 
soil. NATO members may gain a degree of energy independence in 
this way. However, one must examine the whole business of how 
fuel comes to nations in legitimate ways, how spent fuel might 
be disposed of, how that separation is made between civilian 
use and potential military weaponization. And likewise, how the 
enforcement situation of all this is to come, and what kind of 
responsibilities nations have, to make certain that there is 
not proliferation, that there is not misuse of experiments.
    Now, whether it be Iran and that particular neighborhood 
now, or other countries later, this is clearly an issue in 
which countries may not have come to conclusions as to what 
role they're prepared to play. But has this been a topic of 
debate also in NATO, quite apart from our negotiators working 
with the three European states, and now with others in the 
IAEA?
    General Jones. Mr. Chairman, I think that, again, having 
just come back from the Munich Security Conference, the 
question of Iran was very topical as well and on everybody's 
lips and the synergy between the American view and the European 
view, if I could use European as a European identity, if you 
will, on this issue is very, very much--seems to be very much 
aligned from the standpoint of concern and solidarity in 
expressing what it is that Iran must do to comply with the will 
of the international community. The Chancellor of Germany, 
Angela Merkel, was very clear on that in her address to the 
conference as well. So this serves a little bit as a forcing 
function within the Alliance as well and the European Union 
that those discussions will increasingly, on the subject of 
proliferation, will most likely also be on the rise in the 
future as well.
    The Chairman. The out-of-area movement to Afghanistan is 
monumental in its significance of the Alliance. Now here come 
sets of issues that are not exactly routine military. As you're 
trying to rearrange the forces to meet new challenges outside 
the continent, here come challenges that may hit inside the 
continent, but in very different ways. In the past perhaps 
people would say, well, a different group of people in our 
government deals with this, this is not exactly a Department of 
Defense function. But then others would say, well, it comes 
awfully close, in terms of national security, or at least the 
coordination between our diplomats and our equivalent of the 
Pentagon or the National Security Council. This really requires 
a coordination that we may not be prepared for individually as 
countries, quite apart from in an alliance with all sorts of 
other national interests involved. And I know this is much on 
your mind. That's why I wanted to provide a forum for you to 
indicate that this has been on the mind not only of yourself as 
NATO Commander, but likewise your colleagues in the other 
countries that you're visiting with, and that there is some 
synergy of movement to get this on the table and begin to 
massage it before a crisis comes.
    General Jones. I think it also serves to remind us as we 
focus on insurgencies and terrorism that every now and then we 
shouldn't forget that there are also nation states out there 
that could cause a great deal of damage as well.
    And certainly the discussions on Iran remind us that it's 
not just about disparate to identify groups, sometimes a nation 
will rise and present a clear--a clear danger to the stability 
and peace of the threat to our collective security and we have 
to be ready for the worst case at all times.
    The Chairman. On the good side though, miraculously, and 
this has not entered our discussion today, all of the countries 
that belong to NATO that comprise this Europe which may not be 
completely whole and free yet, but, as the President described 
it, is now very large, have not offered a hint of potential 
aggression against one another.
    That is remarkable, given the history of the last 
millennium, in which this is the only 50-year period in which 
that was not the case. As we talk about all of the threats that 
we've discussed today, outside of the box and so forth, inside 
the box it's still a remarkable story which sometimes is taken 
for granted. People say, well, what has NATO done for me 
recently or so forth. Well, the fact is historically, just the 
fact that NATO is there, is well-governed, that there's good 
dialog, that there's reaching out to these important problems, 
is itself just a remarkable achievement that we ought to 
celebrate at a hearing on NATO like this one.
    General Jones. Mr. Chairman, thank you very much, and to 
those who sometimes ask me the same thing, what's the value of 
NATO? I mean, what does it do and so we have long answers and 
short answers and I'll give you the short answer, but one of 
them is to just ask people if they understand what the growth 
of NATO has been just in the last 10 or 15 years to 26 
countries today and the fact that one indication of the health 
of the Alliance is that there isn't one nation that's trying to 
leave NATO, and quite to the contrary there's probably 10 or 12 
lined up that are really anxious to become NATO members.
    So clearly there's value there and people understand it and 
all you have to do is travel around a little bit and you get 
that sense. And even nontraditional relationships with 
countries along the North African littoral, for example, are 
blossoming, again, under the NATO level of influence. I had one 
Chief of Defense of a North African country ask me why 
Operation Active Endeavor did not have a landward function to 
the south, of course, and meaning that his country would 
welcome that. I found that astounding and certainly indicative 
of an alliance that is held in high esteem, increasingly high 
esteem by many people. And an alliance that not only exists to 
provide the heavy hand, if you will, of military operations, 
but also the softer hand of humanitarian and disaster relief 
such as the very successful, recently completed, virtually just 
a few days ago, operation in Pakistan, which I think really 
showed NATO to that part of the world in a completely different 
light than their preconceived notions of NATO as essentially a 
war fighting force which only did heavy-handed military 
operations and were absolutely stunned to discover the capacity 
that NATO had to bring comfort to people who had lost 
everything in the aftermath of the earthquake and to save lives 
and to do things that frankly surprised many people in that 
part of the world.
    The Chairman. Yes, it is a place with lots of ice and snow 
and poor roads and all of the worst conditions for humanitarian 
work. Let me just conclude by saying that you have many 
supporters of NATO here on the home front, people who have 
served in administrations of the past and the present and all. 
I've received word from some of these friends that they would 
like to begin to get together for informal dinner meetings such 
as we've had in the past. In the past we thought about who 
ought to be new members and then evolved into what sort of new 
missions might come from all of this.
    But I think there is a cadre of support, Democrats, 
Republicans, people from many administrations, that have 
watched the evolution of this and who are very hopeful of being 
helpful in terms of our own dialog here in our debates which 
are sometimes watched by others. So I offer that word of 
assurance that the debates that you are having and the 
strenuous business, as you've described, the embryonic debates 
of new missions and goals, are being followed carefully and 
supportively. We're hopeful that we'll be able to take 
constructive action as you and others call upon us.
    We thank you so much for this testimony, for the very 
useful materials that you have given to all members of the 
committee and our staffs, and for your own personal testimony 
today. So saying, the hearing is adjourned.
    General Jones. Thank you, Mr. Chairman.
    [Whereupon, at 3:33 p.m., the hearing was adjourned.]

                              ----------                              


 Additional Prepared Statement and Questions and Answers Submitted for 
                               the Record


 Prepared Statement of Senator Joseph R. Biden, Jr., U.S. Senator from 
                                Delaware

    Mr. Chairman, thank you for convening a hearing on this important 
issue. I also want to thank General Jones for his extraordinary 
leadership of the Alliance. The American people and the citizens of 
NATO's other members are very well served by your diplomatic skill and 
strategic vision.
    Over the last 15 years, relentless change has been one of the few 
constants in the realm of Euro-Atlantic security. Some of those present 
may remember the inaugural meeting of NATO's North Atlantic Cooperation 
Council in December 1991. Toward the end of the assembly, which brought 
together longtime NATO members and representatives from the newly 
democratizing nations of Eastern Europe, the Soviet Ambassador 
announced that his country had dissolved during the meeting and that 
from that time on he would only represent the Russian Federation.
    The end of the Soviet threat precipitated some of the changes 
facing NATO today, but it was just one of many transformational events 
that NATO has confronted in recent years. From the conflicts in the 
Balkans, to the invocation of article 5 following the 9/11 attacks, to 
the conflict in Afghanistan, to Iraq, to Darfur, NATO is addressing 
security challenges today that go well beyond its original mandate of 
protecting Europe from the Red Army.
    The evolution of NATO's mission and mandate is in itself an 
indication that the Alliance is doing something right. Even more than 
equipment, training, or numbers, adaptability has traditionally been 
the single most important attribute of any successful military force, 
and NATO has demonstrated a willingness to adapt when faced with new 
challenges. However, the changes that have taken place to date, while 
positive, will not be enough to guarantee NATO's relevance in the 
future.
    In order to remain the world's preeminent security alliance, NATO 
needs to accelerate its evolution in at least three key areas related 
to the Alliance's capability, credibility, and equity.

                               CAPABILITY

    The military operations NATO has engaged in since the mid-1990s 
have demonstrated the Alliance's overwhelming might. But they have also 
exposed some vast capability gaps between the United States and Europe. 
To ensure that future generations of United States and European troops 
will be able to train and deploy together, we must bridge this divide.
    The primary responsibility for training and equipping our European 
allies falls on European governments. Our NATO partners need to develop 
military forces that are more capable, adaptable, and deployable. The 
NATO Reaction Force (NRF) represents a step in the right direction--I 
applaud the European countries that have contributed to that effort. 
The United States must give priority to our ongoing commitments in Iraq 
and Afghanistan. But, in time, I hope we will participate in the NRF, 
as well. The NRF will only achieve its goal of creating an agile, 
competent force if it receives sustained funding and regular exercise. 
NATO's member states should work together to guarantee that those needs 
are satisfied.
    One of the greatest challenges to NATO's capabilities is the 
planned expansion of its responsibilities in Afghanistan. Over the next 
few months, NATO troops will start taking over from United States units 
in significant portions of southern Afghanistan. For the first time, 
NATO will be shouldering responsibility for a major portion of the 
counterinsurgency and counterterrorism work in that country.
    This transition should free up thousands of American troops for 
much-needed rotation back home, or for other necessary deployments. But 
there are still many unanswered questions about NATO's mission in 
Afghanistan: Will the NATO troops that replace American units be up to 
the vital task of tracking down and defeating al-Qaeda and the Taliban? 
Will they have the necessary training, weapons, mobility and logistics, 
and intelligence capacities? Will there be smooth cooperation and 
interoperability between NATO troops and other coalition partners such 
as Japan, South Korea, and Jordan? Will NATO be able to work with the 
nascent Afghan National Army? Perhaps most importantly, will the 
European nations supplying NATO troops give them sufficiently tough 
rules of engagement?
    Over the next few months, we will all watch as NATO answers these 
questions.

                              CREDIBILITY

    A second area in which NATO needs to evolve relates to its 
credibility. To retain the respect NATO acquired during the military 
campaigns in the Balkans, NATO members must not stand by and watch when 
atrocities are committed on their doorstep.
    NATO has taken the unprecedented step of assisting the African 
Union with its mission in Darfur, Sudan. Such cooperation is a first 
for both organizations. I fully support NATO's assistance to the 
African Union in Sudan--and I believe that it could do even more.
    The United Nations Security Council just passed a resolution 
authorizing a U.N. peacekeeping mission in Darfur. But even if all goes 
as planned--and that is a big if--it will be a year before such a 
mission is fully deployed. The African Union has done an admirable job 
in Darfur. But it has never had the men, material, or mandate to stop 
the violence. And the security situation there continues to degenerate. 
The people of Darfur cannot wait a year for it to improve. NATO could 
help by providing a small contingent to bridge the gap between the AU's 
mandate and the full deployment of the United Nations peacekeeping 
mission. A relatively small number of NATO troops--to serve as 
advisors, to help with command and control, intelligence gathering and 
dissemination, communications and logistics--would help the AU 
substantially improve the security environment in Darfur.
    Both Congress and the administration have called what is going on 
in Sudan, genocide. We must use all the resources at our disposal--
including NATO--to stop it.

                                 EQUITY

    Last, as NATO continues to expand--and I hope NATO will continue to 
expand--the Alliance needs to address the equity issues that stem from 
its current system of burden-sharing. When the allies founded NATO in 
1949, the nations of Europe were still digging their way out of the 
rubble and poverty left by World War II. Under those circumstances, an 
arrangement in which each country picked up the costs of its own NATO 
activities was the best available means of defending Europe from the 
Soviet Union, despite the fact that it placed a disproportionate 
financial burden on the United States. Fortunately, a lot has changed 
in the intervening years and it is now time to revisit the way in which 
NATO funds its operations.
    The current system in which costs ``fall where they lie'' creates a 
warped incentive for inaction. Financially, NATO members can sometimes 
do better by sitting back and letting others address threats to their 
security. NATO needs a more equitable system with incentives for 
participation in NATO operations. Specifically, I hope that future 
funding mechanisms will encourage countries to commit resources early 
when security problems arise. Prevention is usually far less costly in 
blood and treasure than crisis management after the fact.
    Mr. Chairman, alliances are like any other relationship; you should 
only expect out of them what you're willing to put into them. In the 
case of NATO, its history demonstrates that it is worthy of our 
support. I hope we will be able to work with our allies to ensure that 
NATO remains indispensable to global peace and security. For today, I 
look forward to General Jones' testimony on how we can achieve that 
goal.
                                 ______
                                 

  Responses of GEN James Jones, Jr., to Questions from Senator George 
                               Voinovich

    Question. I want to thank you for a thought-provoking discussion 
about how NATO can promote common security and export stability. Please 
elaborate on how NATO can expand its role in security, stability, and 
reconstruction, capabilities that NATO established during operation in 
the Balkans and Afghanistan. Specifically, I am interested in the 
concrete steps that NATO would take in order to prevent instability 
during its root phases rather than reacting to it once a situation has 
become critical to common security. One proposal is to do more to train 
and professionalize other militaries so that they do a better job to 
handle instability internally. Are there specific regions in the world 
where you believe NATO should be getting involved now and/or where NATO 
should be working more closely with professional militaries?

    Answer. NATO has, since the end of the cold war, reached out to its 
neighbors and built partnerships to improve regional security and to 
help partners reform their militaries. Successful programs such as 
Partnership for Peace, Mediterranean Dialogue, and most recently 
Istanbul Cooperation Initiative have helped foster increasingly strong 
relationships with nations to the east of Europe, around the rim of the 
Mediterranean and the Middle East. Through these partnership programs 
we are building lines of communication and understanding, and helping 
train and educate partners' militaries to operate alongside NATO but 
also more effectively internally. Officer's and NCO's from partner 
nations train in NATO defense and education establishments, and partner 
units work alongside NATO units on exercises and on some operations. 
Through these activities partners' soldiers and officers see NATO 
militaries working within democratic institutions, respecting the rule 
of law and human rights.
    A proactive, preventative approach to security and stability is 
considerably cheaper than a reactive one. NATO has the skills and 
standing to help train professional militaries in areas of instability. 
However, NATO's expertise lies in training at the operational and 
strategic level. Most instability also needs to be addressed at the 
tactical level and this is best done on bilateral basis. Therefore any 
NATO approach to addressing regional or local instability would need to 
be done in conjunction with a bilateral actor or with a lead NATO 
nation conducting the tactical level training. NATO has, by its 
partnership programs and recent operations, demonstrated its ambition 
to work in those areas of the world where instability has an impact 
upon the security of NATO nations. I do not see this level of ambition 
or area of interest diminishing.

    Question. Please elaborate on how NATO is working with PfP nations 
to prepare them for possible future integration or cooperation with 
NATO. How might cooperation with PfP nations, the EU, or the OSCE 
expand under your vision for NATO's future?

    Answer. NATO encourages PfP nations to participate in NATO 
operations once they have reached NATO-established standards and 
achieved NATO certification. The path to operational participation for 
partners often starts many years before the first individual joins a 
mission headquarters or the first partner unit joins a multinational 
formation. Participation in a partnership program is not a guarantee of 
operational participation, the partner has to ``add value'' and be able 
to operate effectively at the level and in the environment they are 
required. Partnership usually begins with exchanges of personnel at 
training establishments and schools, developing to establishing 
understanding on procedures and standards through discussion and 
exercises, and concluding with an ability to operate within a NATO-led 
operation alongside NATO nations' units and formations.
    NATO's only Article V operation, Operation Active Endeavour, (an 
operation to counter terrorism in the Mediterranean), is proving to be 
a helpful model to demonstrate the success of this method. Russian 
ships are currently training with NATO ships off Italy and will 
formally join the operation in the summer. Ukraine, Israel, Morocco, 
Georgia, Algeria, Croatia, Sweden, and Albania are each at various 
practical or discussion stages with regard to this operation which is 
proving to be a useful ``entry'' operation for nations who may not 
previously have considered working alongside NATO. Partners provide 
individuals and units to other NATO operations in the Balkans and 
Afghanistan. However, it is quite possible that successful partnerships 
in Operation Active Endeavour will lead to increased participation by 
partners in other NATO operations and, in due course, within NATO's 
primary transformation vehicle, the NATO Response Force, once it 
reaches full operating capability this year.
    NATO has a strong military-to-military relationship with the EU 
currently and works cooperatively and in a complementary manner in the 
Balkans and more recently in support of the African Union Mission in 
Sudan. Deputy SACEUR is the operational head of EU operations and the 
lead on NATO operations. The EU's operational headquarters is based at 
SHAPE and there are NATO and EU liaison cells in our respective 
military planning headquarters. This relationship will, I believe, 
strengthen and find a natural, complementary balance.
    NATO is currently exploring its relationships with other regional 
and international actors like the United Nations and African Union. In 
a similar vein, any future relationship will most likely be 
complementary, cooperative, and mutually beneficial.

    Question. What is the likelihood that other members of the Alliance 
would support a more proactive role in common security and affirm the 
commitment at the 2006 NATO Summit? Which countries would be most 
supportive of this vision? Which countries would oppose this vision? In 
the same vein, how do you think other security organizations would 
react to a pronounced vision of common security at the 2006 NATO 
Summit? Are there organizations, such as the Shanghai Cooperation 
Organization or other groups, that would respond negatively to the 
concept of NATO exporting stability and promoting common security? What 
would you propose the Alliance do to alleviate concerns?

    Answer. At the NATO Heads of State Summit in Riga, Latvia, this 
November, nations have another opportunity to restate NATO's enduring 
value toward the new security environment and to what is certain to be 
a more expanded character of the Alliance. We should encourage nations 
to take on a more proactive and agile approach to our common security.
    One of Secretary General de Hoop Scheffer's key objectives has been 
to improve NATO's working relationships with various international 
organizations, to include those that focus on security (such as the 
European Union). Although NATO does not have formal relations with 
organizations such as the Shanghai Cooperation Organization (SCO) and 
the Collective Security Treaty Organization, the Alliance could assist 
in alleviating any concerns they may have over the transformation of 
NATO in a 26+1 format, with partner and other nations who are members 
of those international organizations.

    Question. I understand that NATO continues to formally review 
KFOR's mission at 6-month intervals. These reviews provide a basis for 
assessing current force levels, future requirements, force structure, 
force reductions, and the eventual withdrawal of KFOR. I understand 
that the transformation is aimed at creating a more efficient structure 
for KFOR and eliminating redundant administrative and support forces 
while maintaining the force levels of maneuver troops. I am concerned 
about the perception of U.S. withdrawal from KFOR while the 
negotiations on Kosovo's future status are at initial stages and 
instability, continues to pervade the region. Additionally, I believe 
U.S. presence symbolizes the priority that our country places on 
security in the regions. Do you agree that KFOR is critical to security 
in Kosovo and that U.S. presence is important to the mission, 
practically or symobolically? Do you believe there is a possibility 
that instability could reemerge in the region? What conditions would 
need to be met before KFOR can withdraw from Kosovo?

    Answer. Kosovo is at a critical juncture in its history. NATO has 
helped maintain security and stability in that region for some time. As 
an alliance we should stand together and give no reason for the parties 
involved in the status talks to believe our collective will to see 
through what we started has in any way reduced. NATO has the will to 
maintain its presence until stability is restored. However, restoration 
of long-term stability is very much a decision of the Balkan States and 
not simply an issue of military security. The people of the Balkans 
will need to recognize the economic and political benefits a more 
stable and secure environment brings. NATO must, therefore, work in 
partnership with other organizations and, in particular, the European 
Union. A definitive timetable for withdrawing KFOR would depend on the 
outcome of the status talks, and the steps taken by the international 
community to support any agreements that are reached.

                                  <all>

</pre></body></html>
